Report No. D-2011-034         January 25, 2011




U.S. Central Command Headquarters' Use of the
          Government Purchase Card
-Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFI                           Air Force Instruction
Comp. Gen.                    Comptroller General
FAR                           Federal Acquisition Regulation
GAO                           Government Accountability Office
GPC                           Government Purchase Card
SP                            Special Publication
U.S.C.                        United States Code
USCENTCOM                     United States Central Command
USSOCCENT                     United States Special Operations Command Central
                                    INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DR IVE
                                ARLINGTON, VIRG INIA 22202-4704

                                                                                  January 25, 201 1


MEMORANDUM FOR COMMANDER, U.S. CENTRAL COMMAND
               COMMANDER, 6th AIR MOBILITY WING

SUBJECT: U.S. Central Command Headquarters' Use of the Government Purchase Card
         (Report No. 0-2011-034)



We are providing this report for review and comment. We considered management comments
on a draft of this report when preparing the final report.

DOD Directive 7650.3 req uires that a ll recommendations be resolved promptly. The comments
from U.S . Centra l Command and the 6 th Ail' Mobility Wing were responsive. However, the
comments from the U.S. Special Operations Com mand Central were only partially responsive.
Therefore, we request additional comments on Recommendation B.I. by March 25, 20 1 1.

[fpossibl e, p lease send a .pdffi le conta ining your com ments to audcol@dodig.mil. Copies of the
management comments must contain the actua l signature of the authorizing officia l. We are
unable to accept the /Signed/ symbo l in place of the actua l signature. [f yo u arrange to send
class ified comments e lectronica lly, yo u must send them over the SECRET [ntel'llet Protoco l
Router Network (SIPRNET).

We apprec iate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868 (DSN 329-5868).




                                            I~Ojl/~
                                              Patricia A. Marsh, CPA
                                              Assistant Inspector General
                                              Defen se Business Operations
Report No. D-2011-034 (Project No. D2009-D000FJ-0265.000)                         January 25, 2011

                Results in Brief: U.S. Central Command
                Headquarters’ Use of the Government
                Purchase Card
                                                            regulations for property accountability and inventory
What We Did                                                 management. As a result, the USCENTCOM wasted
Our objective was to determine whether the U.S.             funds by procuring prohibited items and by splitting
Central Command (USCENTCOM) headquarters’ use               purchases that did not receive the benefit of contract
of Government purchase cards complied with                  competition. It also risked financial loss of materials
applicable laws and regulations. Our scope of review        through inadequate property accountability.
was a universe of 6,934 purchase card transactions
valued at $7.9 million from July 1, 2008, through           The USCENTCOM Protocol Office did not properly
June 30, 2009. In addition, we reviewed the                 account for 186 gift items, worth $5,765, and the gifts
USCENTCOM Protocol Office’s use of the                      available exceeded current fiscal year needs for its
Government purchase card and accountability for             inventory of gifts. These conditions occurred because
purchases using official representation funds.              the Protocol Office personnel did not properly
                                                            implement inventory procedures. The lack of
What We Found                                               accountability over the gift inventory could result in a
                                                            diversion of assets from official uses. Additionally,
The Air Force 6th Contracting Squadron’s agency
                                                            the improper and questionable use of official
program coordinator did not adequately document the
                                                            representation funds for an excessive inventory
group training she administered for approving
                                                            prevented those funds from being used for more
officials and cardholders. This occurred because the
                                                            effective purposes.
agency program coordinator did not follow Air Force
guidance that required the coordinator to document
training sessions. Unless training is fully                 What We Recommend
documented, the 6th Contracting Squadron cannot be          The Commander, USCENTCOM, should take
certain that cardholders have taken all the necessary       appropriate actions to dispose of prohibited or
training to ensure that only proper purchases               excessive items, investigate the coin purchases, and
are made.                                                   require personnel to comply with policy requiring
                                                            supporting documentation, property accountability,
USCENTCOM cardholders made 10 inappropriate                 and inventory management.
transactions out of the 120 transactions we
nonstatistically selected. Transactions were                The Commander, 6th Air Mobility Wing, should
inappropriate as follows:                                   improve the record-keeping of the training taken by
                                                            Government Purchase Card approving officials
•   3 split purchases and 1 prohibited purchase,            and cardholders.
•   2 that were both split and prohibited purchases,
•   2 that lacked the required supporting                   Management Comments and Our
    documentation, and                                      Response
•   2 that should have been purchased through the
                                                            The Chief of Staff, USCENTCOM, and Commander,
    contracting process.
                                                            6th Air Mobility Wing, agreed with the
                                                            recommendations, and their comments were
Also, 8 of the 120 transactions sampled, valued at
                                                            responsive. The Deputy Commander, U.S. Special
$38,081, were purchases of sensitive or pilferable
                                                            Operations Command Central partially agreed with
materials that program personnel should have
                                                            Recommendation B.1. However, we disagree with
recorded in property record systems. The deficiencies
                                                            the comments provided concerning the coin purchases
occurred because USCENTCOM personnel did not
                                                            and request that additional comments be provided.
follow or enforce the purchase card program rules and
                                                            Please see the recommendations table on page ii.

                                                        i
Report No. D-2011-034 (Project No. D2009-D000FJ-0265.000)            January 25, 2011

Recommendations Table
Management                      Recommendations             No Additional Comments
                                Requiring Comment           Required
Commander, U.S. Central         B.1                         B.2, B.3, C.1, and C.2
Command

Commander, 6th Air Mobility                                 A.1 and A.2
Wing


Please provide comments by March 25, 2011.




                                             ii
Table of Contents

Introduction                                                              1

      Objective                                                           1
      Background                                                          1
      Review of Internal Controls                                         2

Finding A. Support for the U.S. Central Command Headquarters’ Government
Purchase Card Program                                                    3

      Recommendations, Management Comments, and Our Response              5

Finding B. Compliance With Government Purchase Card Regulations           6

      Recommendations, Management Comments, and Our Response             13

Finding C. Official Representation Fund Gift Inventory                   16

      Recommendations, Management Comments, and Our Response             19

Appendix. Scope and Methodology                                          20

Management Comments

      U.S. Central Command and U.S. Special Operations Command Central   22
      6th Air Mobility Wing                                              27
Introduction
Objective
Our objective was to determine whether the U.S. Central Command (USCENTCOM)
headquarters’ use of the Government purchase card (GPC) complied with applicable laws
and regulations. In addition, we reviewed the U.S. Central Command Protocol Office’s use
of the Government purchase card and accountability for purchases using official
representation funds. See Appendix A for a discussion of the scope and methodology.

Background
Section 2784, title 10, United States Code (10 U.S.C. § 2784) establishes the GPC
Program for the Department of Defense. In addition, section 2784 requires the DOD
Office of Inspector General to perform periodic audits of the DOD GPC Program
to identify:

   •   potentially fraudulent, improper, and abusive use of purchase cards;
   •   any pattern of improper cardholder transactions, such as purchases of prohibited
       items; and
   •   categories of purchases that should be made by means other than the GPC to
       better aggregate purchases and obtain lower prices.

Laws and Regulations on Use of the Government Purchase Card
Use of the GPC is governed by public laws, Federal regulations, and executive guidance.
Specifically, 31 U.S.C. § 1301(a), commonly known as the Purpose Statute, states that:
“Appropriations shall be applied only to the objects for which the appropriations were
made except as otherwise provided by law.” The effect is that the GPC should only be
used to acquire goods and services that are a bona fide need and necessary expense.

The Federal Acquisition Regulation (FAR) Subpart 13.2, “Actions at or below the Micro-
Purchase Threshold,” states that the GPC is the preferred method to purchase and pay for
“micro-purchases.” A micro-purchase is an acquisition of supplies or services using
simplified acquisition procedures. FAR 13.301(c), “Governmentwide Commercial
Purchase Card,” states that the GPC is used as a procurement and payment tool for micro-
purchases. The micro-purchase threshold during our period of review was $3,000.
Under the Defense Financial Acquisition Regulation Supplement 213.301(2), the GPC
may also be used in excess of the micro-purchase threshold for purchases up to $25,000
made outside the United States, for use outside the United States.

Office of Management and Budget, Circular A-123, “Management’s Responsibility for
Internal Control,” Appendix B, “Improving the Management of Government Charge Card
Programs,” January 15, 2009, Chapter 13, “Management of Property Acquired by a
Purchase Card,” provides guidance related to asset accountability. Chapter 13 states:
“Because property acquired by the purchase card and/or convenience check is frequently

                                           1
delivered directly to the cardholder or the end-user (inside delivery), each agency must
issue policies and procedures to ensure effective management of this property.”

Program Management at U.S. Central Command
GPCs used by USCENTCOM were issued and supported by a hosting Military Service
contracting office. The Air Force’s 6th Contracting Squadron provided this support
through its 6th Air Mobility Wing contracting office located at MacDill Air Force Base,
Florida. The GPC Program at USCENTCOM was governed by Air Force Instruction
(AFI) 64-117, “Air Force Government-Wide Purchase Card Program,” January 31, 2006.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls.

We identified internal control weaknesses for USCENTCOM and the 6th Air Mobility
Wing. For the transactions we reviewed, USCENTCOM did not always follow internal
controls for property accountability and inventory management. Adequate internal
controls over property accountability and inventory management includes ensuring that
highly sensitive and pilferable property was documented on the applicable property
records and that adequate custodianship was maintained for gift items procured with
official representation funds. Implementing the recommendations in Findings B and C
will improve the internal controls for property accountability and inventory management.

The 6th Air Mobility Wing’s Contracting Squadron did not follow internal controls over
monitoring and record-keeping for GPC refresher training. Implementing the
recommendations in Finding A will improve internal controls over the monitoring and
record-keeping of the training.

We will provide a copy of the report to the senior officials responsible for
internal controls.




                                             2
Finding A. Support for the U.S. Central
Command Headquarters’ Government
Purchase Card Program
The Air Force 6th Contracting Squadron’s agency program coordinator did not adequately
document the group training she administered for approving officials and cardholders.
This occurred because the agency program coordinator did not follow Air Force guidance
that required the coordinator to document training sessions.

During our review, the squadron was developing a new electronic system to support the
responsibilities of the agency program coordinator. Until this new system is fully
maintained and updated, manual documentation and record-keeping must be completed.
Unless training is fully documented, the 6th Contracting Squadron cannot be certain that
cardholders have taken all the necessary training to ensure that proper purchases
are made.

Purchase Card Controls
Annual Surveillance Reviews
Our review of the 19 surveillance reviews showed that the agency program coordinator’s
office adequately performed its oversight responsibilities for the GPC Program. AFI 64-
117 requires that the agency program coordinator annually review the accounts of each
approving official and a random sample of 25 percent of cardholders assigned to the
approving official’s account. In order to standardize the review, the agency program
coordinator must use Surveillance Checklists, which include the “Review of Approving
Official Accounts” and “Review of Cardholder/Checkwriter Accounts.”

The checklist for the approving official contained 26 questions, including the following:

   •   Does the approving official have an appointment letter?
   •   Has the approving official received training?
   •   Does the approving official review and approve the Statement of Account within
       15 days after the end of the billing cycle?
   •   Has the approving official notified the agency program coordinator of any lost or
       stolen cards within 5 workdays?
   •   Does the number of cardholders assigned to approving officials allow them to
       adequately monitor their cardholders’ purchase activity?
   •   Has the approving official accomplished 100-percent surveillance reviews of
       cardholder accounts within the past 12 months?
   •   Does the approving official maintain original supporting documentation for
       closed cardholder accounts?

The checklist for the cardholder also contained 26 questions, including the following:

                                            3
   •   Does the cardholder have a delegation letter?
   •   Does the cardholder have training?
   •   Is a single purchase limit set?
   •   Is a monthly purchase limit established?
   •   Are the spending limits realistic?
   •   Are all purchases documented in a purchase log?
   •   Did the cardholder pay tax on any purchases?
   •   Are receipts for each purchase and other supporting documentation maintained in
       a separate file and available for review by the approving official?

The agency program coordinator reviewed 19 of the 20 approving officials’ accounts in
our sample. The one account that was not reviewed was for a recently appointed
approving official. Once the review was completed, the agency program coordinator
provided results to the respective unit commanders and requested formal responses for
any issues found. If the responses were satisfactory, the agency program coordinator
closed out the review and placed it in the approving official’s file.

Training Records
The 6th Contracting Squadron’s agency program coordinator’s office did not adequately
document annual refresher training for USCENTCOM approving officials and
cardholders. Properly trained individuals are necessary for a successful GPC Program.
AFI 64-117 requires mandatory training courses for participants in the GPC Program and
annual refresher training. The AFI states the following:

       [The agency or organization program coordinator] is responsible for providing mandatory
       refresher training to all cardholders and approving officials on an annual basis. This “continuing
       education” requirement can be satisfied by holding a classroom session, providing periodic
       newsletters, accessing web-based training or other suitable vehicles. The [coordinator] should
       document these sessions and, when practicable, compile and retain a list of attendees.

Additionally, the AFI states that the agency or organization program coordinator is to
“maintain GPC training records for all cardholders and approving officials.”

We inquired whether the agency program coordinator had provided refresher training.
The agency program coordinator said that she provided a group refresher training session,
but a list of attendees was not retained and training certificates were not issued. We were
unable to establish why the list was not retained and certificates were not issued. The
agency program coordinator had not complied with AFI 64-117 on maintaining
training records.

Government Purchase Card Tracking System
The agency program coordinator stated that the 6th Contracting Squadron developed a
new centralized database and tracking system to ensure better oversight and
accountability over the GPC Program for all of its customers. Personnel in the agency


                                                   4
program coordinator’s office provided us with an Excel spreadsheet that was being used
to gather the data that would populate the new system.

Training data were included in the database for all approving officials and cardholders
involved in the GPC program for all of the 6th Contracting Squadron’s customers. At the
time of our review, the database was not complete. However, we also reviewed the
documentation that described the new automated tracking system and concluded that
once the new system was completed, maintained, and updated, the agency program
coordinator would be able to more effectively support customers. The 6th Contracting
Squadron should establish a plan to ensure that the database is completed, properly
maintained, and updated.

Recommendations, Management Comments,
and Our Response
A. We recommend that the Commander, 6th Air Mobility Wing:

      1. Require the agency program coordinator to follow established Air Force
guidance to document all training taken by all approving officials and cardholders.

      2. Establish a plan to ensure that the new electronic Government Purchase
Card Tracking system is completed, properly maintained, and updated.

6th Air Mobility Wing Comments
The Commander, 6th Air Mobility Wing, agreed and stated that the agency program
coordinator is documenting all training and documenting all past training events. In
addition, a new policy has been established that stipulates no account will remain active
unless all training has been accomplished and entered into the new tracking system.

Our Response
The Commander’s comments were responsive and met the intent of the
recommendations. No additional comments are required.




                                            5
Finding B. Compliance With Government
Purchase Card Regulations
Cardholders at the USCENTCOM headquarters made 10 inappropriate transactions out of
the 120 purchase card transactions. Seven cardholders, reporting to six approving
officials, made the following inappropriate transactions:

   •   3 split purchases,
   •   1 prohibited purchase,
   •   2 that were both split and prohibited purchases,
   •   2 that lacked the required supporting documentation, and
   •   2 that should have been purchased through the contracting process.

Additionally, of the 120 transactions, 29 involved sensitive or pilferable materials that
should have been recorded on property records. However, the acquired assets for
8 transactions, valued at $38,081, were not recorded in USCENTCOM’s property
accountability systems. This occurred because USCENTCOM personnel did not follow
or enforce purchase card program rules and regulations for property accountability and
inventory management.

As a result, the U.S. Central Command wasted funds by procuring items and by splitting
purchases that did not receive the benefits of contract competition. It also risked
financial loss of materials through inadequate property accountability.

Federal Acquisition Regulation and Air Force Guidance
To obtain the goods and services the Government needs from commercial vendors at the
lowest cost, the FAR has established the “simplified acquisition” or “micro-purchase”
process. The FAR also describes the issue of split purchases. A split purchase occurs
when cardholders segregate the purchase requirements into several transactions to avoid
the $3,000 micro-purchase threshold. A split purchase can also occur when recurring
services exceed $3,000 annually.

FAR Part 13 prohibits splitting purchase requirements into more than one transaction to
avoid the need to obtain competition on purchases that exceed the $3,000 micro-purchase
threshold. FAR 13.003(c)(2) states the following:

       (2) Do not break down requirements aggregating more than the simplified acquisition
       threshold (or for commercial items, the threshold in Subpart 13.5) or the micro-purchase
       threshold into several purchases that are less than the applicable threshold merely to–

               (i) Permit use of simplified acquisition procedures; or
               (ii) Avoid any requirement that applies to purchases exceeding
               the micro-purchase threshold.




                                                   6
Splitting a requirement; that is, making a “split purchase,” is an inappropriate contracting
action by which a cardholder potentially deprives the Government of the benefits of
competition or avoids other Government procurement policies.

USCENTCOM operated its GPC Program under Air Force regulations; specifically,
AFI 64-117. Chapter 2, “Authorized and Unauthorized Use of the GPC,” provides the
criteria for transactions made with the purchase card. For example, section 2.1.2 states:
“The GPC may be used to purchase authorized supplies, equipment, and non-personal
services up to the micro-purchase threshold,” which was $3,000. Section 2.1.2 also
states: “Recurring services requirements estimated to exceed $2,500 per fiscal year shall
be acquired through the local contracting office.” 1 Section 2.4.9, “Gifts,” prohibits the
purchase of coins, and Section 2.13, “Accountability of Property,” requires the unit
commander to take actions monthly to ensure that the items purchased that require
accountability are recorded in the appropriate property book. Under Section 4.3.5.2,
“Conditions for Use,” the instruction states: “Payment for purchases shall not be split in
order to stay within the single purchase limit.”

Areas of Noncompliance
Split Purchases
Three cardholders made split purchases by inappropriately splitting single requirements
into multiple transactions to stay under the $3,000 single-purchase limit. Two of the
purchases were for a prohibited item. These purchases were made under three
approving officials.

A cardholder in the U.S. Special Operations Command Central (USSOCCENT) within
USCENTCOM and headquartered at MacDill Air Force Base had a request for
900 Command coins. The cardholder made an acquisition of 500 coins, for $2,350, from
a U.S. vendor and 8 days later acquired another 400 identical coins, for $1,880, from an
overseas vendor. These 900 coins cost a total of $4,230, thus exceeding the micro-
purchase limit of $3,000 by $1,230. The cardholder stated in our interview that he was
not satisfied with the coins from the U.S. vendor and so he went to the foreign vendor.
We concluded that the cardholder made the two transactions to avoid the $3,000 single
purchase limit requirement. The purchase of coins is prohibited under AFI 64-117,
section 2.4.9, but even if it was permitted, it would have been an improper split purchase
under AFI 64-117, section 4.3.5.2, and FAR.13.003(c)(2) The approving official did not
prevent or protest the transactions and, therefore, was responsible for them. They were
an inappropriate use of the purchase card and Government funds.

In another occurrence of a split transaction, a USCENTCOM cardholder purchased a
door for an office suite, at a cost of $2,547. Within minutes, the cardholder paid an
additional $600 for expedited shipping. Both the requirement for the door and the


1
 The micro-purchase threshold in the FAR is $3,000; AFI 64-117 still stipulated $2,500 for its purchase
limit for supplies and services.

                                                    7
expedited shipping, totaling $3,147, were known at the time of the transactions. The
approving official acknowledged the purchase was a split purchase by a cardholder on
temporary duty assignment at a facility away from the main USCENTCOM facility. He
stated that USCENTCOM had taken action to prevent future split purchases; specifically,
cards would no longer be issued to temporary duty personnel, special emphasis would be
put on identifying all potential requirement costs before making purchases, and all
purchases would be approved by the approving official before an acquisition.

Another cardholder also split a single requirement, purchasing 25 clocks and 40 pen sets
from the same vendor on the same day. These were intended to be gifts to be presented
by the Director of Intelligence, USCENTCOM. They were an allowable expense because
they were purchased using official representation funds, which are set aside for extending
official courtesies to distinguished citizens, foreign dignitaries, and others. However, the
cardholder made the purchase in two installments – a deposit of $1,500 and another of
$1,615 – on the same day, thereby exceeding the $3,000 limit. The cardholder made the
two transactions to avoid the $3,000 purchase limit. Therefore, this split procurement
transaction was an inappropriate use of the purchase card and a clear violation of
established regulations against split procurements.

Prohibited Items
AFI 64-117, Section 2.4.9, “Gifts,” prohibits the purchase of coins using the Government
Purchase Card. One cardholder made three transactions to purchase coins, outside the
official representation fund process, using Operation and Maintenance appropriated
funds. The cardholder purchased 500 Command Sergeant Major coins for $2,275 and
900 Command coins for $4,230 in two transactions. (These are the Command coins
discussed under Split Procurements.)

The Government Accountability Office (GAO), in “Principles of Federal Appropriations
Law,” GAO-04-261SP [special publication], January 1, 2004, supported the AFI 64-117
prohibition of coin purchases. Drawing upon 31 U.S.C. § 1301(a), commonly known as
the Purpose Statute, GAO opined in 68 Comp. Gen. [Comptroller General] 226 (1989)
that the use of appropriated funds for gifts is prohibited unless there is specific statutory
authority. USCENTCOM did not provide specific statutory authority to purchase coins.

GAO further stated that the approval of gifts generally involves the application of the
“necessary expense doctrine.” GAO states:

       The necessary expense rule is really a combination of two slightly different but closely
       related concepts:

       An appropriation made for a specific object is available for expenses necessarily incident
       to accomplishing that object unless prohibited by law or otherwise provided for. For
       example, an appropriation to erect a monument at the birthplace of George Washington
       could be used to construct an iron fence around the monument where administratively
       deemed necessary to protect the monument. 2 Comp. Dec. 492 (1896). Likewise, an
       appropriation to purchase bison for consumption covers the slaughtering and processing
       of the bison as well as the actual purchase. B-288658, Nov. 30, 2001.



                                                   8
       Appropriations, even for broad categories such as salaries, frequently use the term
       ‘necessary expenses.’ As used in this context, the term refers to ‘current or running
       expenses of a miscellaneous character arising out of and directly related to the agency’s
       work.’ 38 Comp. Gen. 758, 762 (1959); 4 Comp. Gen. 1063, 1065 (1925).

GAO explained that the giving of gifts (in this case, the coins) needs to directly
contribute to an authorized function of the agency. GAO opined that the rationale for
awards follows that of gifts and cites that occasional exceptions may apply if there is
adequate justification under the necessary expense doctrine.

The documentation and testimony provided by the cardholder did not support a necessary
expense. During an interview, the cardholder stated that the coins were not given out as
awards. The cardholder stated that the Command had traditionally kept a stock of coins
for the Commander to present to USCENTCOM personnel whenever the Commander
visited places. Distributing coins to personnel did not further USCENTCOM’s mission
and, thus, was not a necessary expense. The cardholder did not comply with AFI 64-117.
The approving official did not prevent or protest the transactions and, therefore, assumed
responsibility for them. These transactions were inappropriate and a misuse of the
purchase card and Government funds.

Supporting Documentation
Two cardholders in our sample, working under two different approving officials, initiated
two transactions but did not retain documentation to support the transactions.
AFI 64-117, Section 4.3.5.3.1.1, “General,” requires cardholders to maintain:

       [r]eceipts (cash register “tickets,” invoices, shipping/packing documents or receiving reports, or
       electronic purchase confirmations are acceptable) for each purchase and other supporting
       documentation such as special approvals…in a separate file…available for review by the
       approving official and [agency/organization program coordinator], upon request.

Further, in Section 4.3.5.5.1, “Documentation and Retention,” the instruction states,
“Documents received and/or generated by the cardholder to support transactions shall be
retained for three years after final payment.”

One cardholder spent $2,157 at the local installation’s Army and Air Force Exchange
Service store for three television sets. We discussed this purchase with the approving
official because the cardholder had transferred and was no longer available. At the time
of our site visit, the approving official could not locate any supporting documentation for
the transaction. After our visit, however, the approving official obtained and provided us
with documentation on the purchase. He stated that the television sets were procured for
the new commander’s office.

In another transaction, the cardholder spent $177 for a vacuum cleaner that was procured
in Southwest Asia. The cardholder did not retain the supporting documentation for the
transaction, stating that she knew she had the responsibility to keep the documentation
but had failed to do so in this case.



                                                    9
Proper Purchase Procedures
Two cardholders made periodic purchase card transactions to pay for services that should
have been acquired through a contract established by a contracting office. AFI 64-117,
Section 2.1.2 states, “Recurring services requirements estimated to exceed $2,500 per
fiscal year shall be acquired through the local contracting office.”

One cardholder was making monthly payments of $500, totaling $6,000 per year, for a
media review service. The cardholder and approving official justified the purchase but
did not use a contract to acquire this recurring service. During the audit, the agency
program coordinator investigated the circumstances and told us a contract had been
established, but there was a communications error, and in this case, the contract was not
used. We verified that the contract existed and could have been used. The agency
program coordinator took action during the audit to begin paying for the media service
through the contracting process.

Another cardholder was paying for a water service, a legitimate Government need under
the circumstances. Our sample transaction was for $1,915, but the total yearly cost for
the service exceeded $11,000. The cardholder told us that there used to be a blanket
purchase agreement for water services, but he was told that the contracting office
canceled the contract. During the audit, we brought this to the attention of the agency
program coordinator. As a result, the cardholder, agency program coordinator, and
contracting office were working to establish a contract for the service.

Property Accountability
USCENTCOM personnel did not ensure that accountable property acquired with the
Government purchase card was recorded in property records. Accountability for the
goods and services acquired is an integral part of the GPC process. AFI 64-117,
Section 2.13, “Accountability of Property,” requires the unit commander to take action
monthly to ensure that the items purchased that require accountability are recorded in the
appropriate property book. Property book records are to include all materials considered
pilferable or easily resalable on the open market. Examples of such assets include cell
phones, digital cameras, fax machines, personal digital assistants, copiers, and printers.
Eight cardholders’ transactions, valued at $38,081, were for property that should have
been recorded on accountability records. (See the Table.)

                                        Unrecorded Assets
                            Description                        Cost
             2 low-speed Kawasaki Mule vehicles               $19,800
             Global positioning system devices                  8,835
             900 USCENTCOM coins                                4,230
             500 Command Sergeant Major coins                   2,275
             Television                                         1,299
             Multimedia projector and mount                       989
             Cigar storage boxes                                  653
              Total                                           $38,081


                                                 10
These assets were sensitive, pilferable, and easily resalable or divertible to personal use.
The cardholders who acquired them and their approving officials failed to ensure that the
assets were recorded on property accountability records. We attribute this to a lack of
emphasis on ensuring that cardholders, approving officials, and unit commanders to
follow property accountability procedures for assets acquired using the purchase card.

One group of items, cigar boxes, was an approved acquisition made under a special
foreign relations program, the provisions of which required the accounting for each asset
purchased and to whom it was given. However, the approving official did not ensure that
the assets were recorded on property records. Also, for other items, including a
multimedia projector, global positioning devices, and a television, the approving officials
did not ensure that the assets were recorded.

USCENTCOM officials stated that two low-speed vehicles, specifically Kawasaki Mules,
were not recorded in accountable property records when purchased because of human
error. The MacDill Air Force Base Transportation Management Office personnel failed
to record the assets when the Mules were received and assembled in October 2008. One
Mule was recorded in September 2009 and the other was recorded in November 2009,
about 1 year after they were purchased. While locating the two Kawasaki Mules, we
observed that the sample items and two other low-speed vehicles at USCENTCOM did
not have markings that identified them as Government vehicles. Distinctively marking
the vehicles as Government property would assist in preventing them from being diverted
to other uses.

DOD Instruction 5000.64, “Accountability and Management of DoD-Owned Equipment
and Other Accountable Property,” November 2, 2006, Paragraph 4, “Policy,” states: “All
persons entrusted with the management of Government property shall … [b]e responsible
for the proper use, care, and physical protection of all Government-owned property.”
Although the 1,400 coins were not an approved asset for acquisition, as discussed, the
coins were still Government-owned assets. Because of the nature of the asset, the
beginning balance, disposition of each coin, and the ending balance should have been
recorded in an inventory system.

Conclusion
The responsibility for the appropriate use of the GPC falls upon the approving official.
Most of the transactions we reviewed were properly executed. However, for
10 transactions, approving officials and cardholders did not follow proper acquisition
procedures. Also, for eight transactions, approving officials and cardholders did not
record the assets in a property system. AFI 64-117 contains numerous references to the
consequences for noncompliance with GPC controls. It is critical that the agency
program coordinator and USCENTCOM enforce these controls. Unless approving
officials and cardholders are held accountable for following key internal controls, the
potential for improper transactions continuing will not be minimized.



                                             11
Management Comments on the Finding
and Our Response
The Chief of Staff, USCENTCOM, requested we remove the first three sentences of the
last paragraph on page 11 of the draft report. He stated that “CENTCOM knows of no
actual situations where accountability of the Mules has not been maintained, or which
USCENTCOM officials could have made this erroneous statement.” In addition, he
stated that:

       the Air Force does not consider these Mules as vehicles and so we can’t enter them into the Air
       Force’s formal vehicle authorization and accountability systems (which are the systems that we
       use to record and maintain accountability of all rolling stock that the Air Force provides and
       considers vehicles, since the Air Force is our Executive Agent). CENTCOM does not have a
       “Transportation Management Office”. The host base does.

Our Response
We did not remove our wording about recording the Kawasaki Mules in the accountable
property records. The low-speed vehicles were not included in the records at the time of
the audit. The personnel designated by USCENTCOM to respond to our review of the
sample transaction did make the statement to us about lack of accountability.
USCENTCOM personnel recorded the vehicles in the property book during the audit. In
response to our recommendation B.3, the Chief of Staff, USCENTCOM, agreed to mark
the vehicles as “Property of the U.S. Government.” We believe this action will further
improve accountability. We changed the wording in the report to reflect the MacDill Air
Force Base Transportation Management Office.

Management Comments on the Issues Related to
USSOCCENT Coin Purchase
We received two sets of comments from the Deputy Commander, USSOCCENT. In his
initial comments on the draft report, the Deputy Commander provided more information
about the purchase of coins. He stated that they were purchased to be awarded as part of
the Mission Impact Awards program. He indicated that the coins were appropriately
purchased in accordance with CENTCOM Regulation 672-3.

The Deputy Commander provided a second set of comments in response to our request
for the procurement records and the awards package for all recipients of the coins. We
requested the citation and narrative justification for each award given. The Deputy
Commander stated that he did not maintain inventory control records during the period
the coins were awarded. However, he added that USSOCCENT began maintaining a
coin log in March 2010. He also stated that a closer inspection of paragraph I-25 of
CENTCOM Regulation 672-3 does not show a requirement to process and maintain an
awards submission package for coins for Mission Impact Awards; therefore,
USSOCCENT did not prepare or possess an awards package for these coins. The
complete text of his comments is attached in the Management Comments section.




                                                  12
Our Response
The Deputy Commander’s action to begin maintaining a coin log was responsive.
However, we disagree that there was no requirement to maintain an awards submission
package for coins. CENTCOM Regulation 672-3, November 5, 1999, was in effect at the
time the transactions were made. The regulation was updated in August 2009, but the
requirements generally remained the same. The Deputy Commander cited section 1-25,
which is actually Section I paragraph 25 page 1-21 of the updated regulation.

Section I, paragraph 15(a), of the November 1999 Regulation, which was in effect
at the time the transactions were made, discusses impact awards. It states that:

       “an impact award is a personal decoration for a specific act or
        accomplishment of such magnitude that immediate recognitions is
        necessary to fully reward the performance being cited. The awards
        approval authority must have personal knowledge of the act or
        accomplishment, either by having observed the act or by having it
        immediately reported to him or her by a reliable eyewitness or
        other dependable source. If the Commander in Chief/Deputy
        Commander in Chief personally approves the impact award “on
        the spot,” a CC Form 25, Final Citation, should be prepared and
        submitted to CCJ1-MPSA by the service member’s chain of
        supervision. Only impact awards may be processed in this
        manner.”

Section I, paragraph 16(b), specifies the items that may be awarded. It states that the
Mission Impact Award consists of coin medallions, trophies, badges, and similar devices
with the USCENTCOM logo. Section I, paragraph 16(f), requires that the Protocol
Office order impact award items in coordination with the Comptroller and maintain and
control the inventory of impact award items. USSOCCENT did not comply with the
requirements to prepare citations for the awards and maintain and control the inventory.

Recommendations, Management Comments,
and Our Response
B. We recommend that the Commander, U.S. Central Command:

      1. Conduct an investigation into the acquisition of the coins and take
appropriate command action based on the results of the investigation.

USSOCCENT Comments
The Deputy Commander, USSOCCENT, partially agreed. After conducting an
investigation into the coin purchase, he stated that he did not agree that the coin purchase
was illegal because the coins were purchased under the Mission Impact Awards program
in accordance with CENTCOM Regulation 672-3, section 1-25. The Deputy

                                             13
Commander agreed that the purchase was improper as a split purchase and stated that all
current personnel who have responsibility for coin purchases were briefed on the correct
procedures and that USSOCCENT has discontinued using overseas vendors for the
purchase of Command coins.

Our Response
The Deputy Commander’s comments were partially responsive. The planned actions to
prevent future split purchases were responsive; however, we disagree that the coins were
purchased in compliance with the Mission Impact Awards program.

As stated above, upon receiving the Deputy Commander’s comments, we requested
additional documentation about the awards program from USSOCCENT. Specifically,
we requested the inventory records and the award citations for the coins. The Deputy
Commander, USSOCCENT, responded that the inventory records for the time period of
the audit did not exist but record keeping began in March 2010. He indicated that the
award citation records also did not exist and were not required.

The regulation in effect at the time the Deputy Commander, USSOCCENT, awarded the
coins was USCENTCOM Regulation 672-3, November 5, 1999. It specifically required
that an inventory and final award citations be maintained when processing impact
awards.

We concluded that the coin purchases were not accounted for in accordance with the
awards program. Action is now in place to maintain inventory records. Additional action
is needed to ensure that USSOCCENT personnel do not purchase and award coins
without preparing citations and narrative justification for the awards given. We request
that the Deputy Commander, USSOCCENT, provide additional comments that address
this outstanding issue.

        2. Reemphasize to U.S. Central Command personnel, including approving
officials and cardholders, the responsibility to record applicable assets in property
accountability systems.

U.S. Central Command Comments
The Chief of Staff, U.S. Central Command, agreed. The Chief of the Contracting
Division issued a policy memorandum reminding all approving officials and cardholders
to record applicable assets in the property accountability system.

       3. Require the distinctive marking of all the U.S. Central Command low-
speed vehicles as U.S. Government vehicles.

U.S. Central Command Comments
The Chief of Staff, U.S. Central Command agreed, and stated that all low-speed vehicles
will be clearly labeled as “Property of the U.S. Government” using permanent etchings.
The estimated completion date for this tasking was October 15, 2010, for all vehicles
located in Tampa and Qatar.

                                           14
Our Response
The Chief of Staff’s comments were responsive and met the intent of the
recommendation. No additional comments are required.




                                          15
Finding C. Official Representation Fund
Gift Inventory
The USCENTCOM Protocol Office did not comply with applicable regulations
concerning proper inventory management and accountability for gift items purchased
using the GPC. Specifically, our nonstatistical sample of gifts maintained by the Protocol
Office showed a discrepancy of 107 gift items, valued at $5,488, and 79 Command coins,
valued at $277. In addition, the Protocol Office maintained an inventory of gift items
that exceeded current fiscal year needs.

These conditions were caused by the failure of personnel assigned to the Protocol Office
to properly implement inventory procedures. In addition, the inventory of coins was not
reconciled upon the change of custodianship. Finally, the Protocol Office failed to follow
established procedures that required gifts procured using the GPC to satisfy only current
fiscal year requirements. As a result, the lack of accountability over the gift inventory
could lead to a diversion of assets from official uses. Additionally, the improper and
questionable use of official representation funds for an excessive inventory prevented
those funds from being used for more effective purposes.

Guidance on Use of Official Representation Funds
DOD Instruction 7250.13, “Use of Appropriated Funds for Official Representation
Purposes,” June 30, 2009, establishes policy, assigns responsibilities, and prescribes
procedures for the use of appropriated funds for official representation purposes. It
specifies that these funds are to be used to host official receptions, dinners, and similar
events, and to otherwise extend official courtesies to guests of the United States and
DOD for the purpose of maintaining standing and prestige. DOD component heads are to
monitor the use of these funds closely to ensure that expenditures comply with socially
accepted morals and that they serve U.S. policy objectives and taxpayer interests. DOD
components heads are to budget and account for resources necessary to support their
official representation requirements. Further, component heads are to maintain records
on how and why these funds were used.

Chairman, Joint Chief of Staff Instruction 7201.01A, “Combatant Commanders’ Official
Representation Funds,” November 7, 2006, specifies that the combatant commander is
specifically accountable for controlling the use of official representation funds in
accordance with the approved fiscal year allocation.

AFI 65-603, “Official Representation Funds – Guidance and Procedures,” February 17,
2004, provides specific instructions on maintaining records on gift assets. The following
details the specific requirements for the use of official representation funds and record
maintenance for gifts.

   • Section 10.2 states that items purchased with official representation funds must be
     strictly accounted for, and the Commander must ensure that there is a current,
     accurate inventory at all times with a clear audit trail of all items purchased.


                                            16
        Additionally, coins issued from official representation inventories must be
        identified by presentation date, location, and recipient’s name.

    • Section 10.3 requires an annual inventory by impartial personnel who reconcile the
      beginning inventory, purchases, and gift items presented to the inventory on hand.
      The individual who performs the inventory is also required to report findings to the
      designated authority and file a report with inventory records for audit purposes.
      Section 10.3.1 also states, “Complete inventory reconciliation is required any time
      inventory custodianship changes.”

    • Section 10.4 states that: “Gift locker inventories should be kept to a minimum.
      Designated authorities should only approve purchases of enough stock for the
      current fiscal year.” 2 Section 10.4.1 states that personalized items should be kept
      to a minimum to avoid disposal at the conclusion of the command tour.
      Section 10.4.2 states that end-of-year purchasing is highly discouraged, as it
      creates inappropriate excess inventory.

    • Section 10.5 discusses the disposal of items from official representation
      inventories that are damaged or otherwise need disposal. It specifies that the
      disposal should be in accordance with local supply procedures to ensure proper
      turn-in to the Defense Reutilization and Marketing Service or other
      authorized disposal.

Use of Purchase Card for Official Representation
Accountability of the assets acquired by the GPC is an integral part of the GPC process
because these items are highly pilferable. To determine whether the Protocol Office was
maintaining and monitoring assets procured for official representation, we inventoried a
nonstatistical sample of items in the gift locker and performed a reconciliation of the
records maintained for Command coins.

Inventory of Gift Items
The Protocol Office did not maintain an accurate inventory of assets stored in its gift
locker. The Protocol Office provided a listing of 96 distinct line assets that identified
994 gifts, valued at $34,425. We inventoried 30 nonstatistically selected distinct line
assets that were identified as having 446 items, valued at $19,661. The inventory count
yielded a shortage of 106 items and an overage of 1 item, with a total discrepancy value
of $5,488. In addition, we requested and received data on the Command coins that were
maintained in a locked drawer. We reconciled the data provided and obtained invoices or
receipts for the coins purchased. After our visit, we made several followup inquiries of
the Protocol Office and the USCENTCOM Inspector General regarding 79 Command
coins for which Protocol Office personnel could not account.


2
  A "gift locker" is a storage facility for assets acquired to support the Command's official representation
functions and is usually maintained by a Command Protocol Office.


                                                      17
When asked about these discrepancies, the Protocol Office personnel stated that the
individual who had been responsible for the official representation inventory retired in
September 2008, at which point they took over the responsibility for the gifts. They did
not take an inventory as required by established guidance for both the gift locker and
Command coins. Rather, they decided to begin a new count of coins that tracked the new
purchases under their custodianship. The Protocol Office needs to follow the provisions
of AFI 65-603, section 10, on maintaining accurate records of the gifts acquired and
their disposition.

Accurate inventory records are an important element of internal controls. The lack of an
accurate inventory record can leave assets vulnerable to diversion to personal or other
nonofficial uses. Assets from a protocol office gift locker tend to be personal use-
oriented items and vulnerable to pilfering.

Excessive Inventory
During our review of the contents of the gift locker, we noticed that many items had been
stored for a long time. When asked about these items, Protocol Office personnel stated
that these items had been procured to be given as gifts by previous USCENTCOM
Commanders and that they would not be given away by the current Commander.
Chairman, Joint Chiefs of Staff Instruction 7201.01A and AFI 65-603 state that official
representation gifts are to be acquired and presented in the current fiscal year.

The Protocol Office needs to identify the gifts that meet current needs and dispose of the
remaining assets using proper Government procedures, such as through the Defense
Reutilization and Marketing Service. As stated in AFI 65-603, the Protocol Office needs
to acquire gifts that meet current fiscal year needs.

Use of Funds
The inventory in the USCENTCOM gift locker was beyond the current fiscal year needs
of USCENTCOM and was an improper and questionable use of funds. DoD Directive
7250.13 specifies that DOD components heads are to budget and account for resources
necessary to support their official representation requirements. In addition, the
Chairman, Joint Chief of Staff Instruction 7201.01A specifies that the combatant
commander is specifically accountable for controlling the use of official representation
funds. As part of the emergency and extraordinary expense provisions of the Operation
and Maintenance appropriation, official representation funds are to be used within the
year of the appropriation. By building an inventory that carries over from year to year,
USCENTCOM personnel were inappropriately using the official representation
funds. USCENTCOM Commanders procured an excessive official representation
inventory and expended funds that could have been applied to other representation
purposes or reprogrammed for other needs.




                                            18
Recommendations, Management Comments,
and our Response
C. We recommend that the Commander, U.S. Central Command:

       1. Require the Command Protocol Office to perform a complete inventory
and analysis of all assets in the gift locker to obtain an accurate inventory count and
identify excessive items that should be either depleted as official gifts or disposed of
by the Defense Reutilization and Marketing Service.

U.S. Central Command Comments
The Chief of Staff, U.S. Central Command, agreed and stated that the Protocol Office
completed the inventory of the gift locker on September 1, 2010.

        2. Require the Command Protocol Office to acquire gifts that meet current
fiscal year needs only.

U.S. Central Command Comments
The Chief of Staff, U.S. Central Command, agreed in principle. The Chief of Staff added
that the Protocol Office must purchase and maintain gifts at the end of the fiscal year to
meet the Commander’s ongoing travel and operational engagements because the office
has historically not had official representation funds available and/or approved at the
beginning of the fiscal year.

Our Response
The Chief of Staff’s comments were responsive and met the intent of the
recommendation. We agree some carryover of gifts is needed, but amounts should not be
excessive. No additional comments are required.




                                           19
Appendix. Scope and Methodology
We conducted this performance audit from August 2009 through December 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our objective was to determine whether the U.S. Central Command (USCENTCOM)
headquarters’ use of Government purchase cards (GPCs) complied with applicable laws
and regulations. We conducted the audit at the Air Force 6th Contracting Command’s
GPC Program Management Office and USCENTCOM headquarters at MacDill Air
Force Base, Florida. We interviewed individual cardholders, approving officials, and the
agency program coordinator. We were limited to interviewing cardholders and approving
officials at the USCENTCOM Inspector General’s office because of access issues within
the headquarters building.

We also reviewed supporting documents, such as sales receipts, invoices, approval
documents, inventory lists, and contracts. Further, we tested individual transactions to
determine whether there was a valid Government need, proper accountability for
materials purchased, and evidence of cardholder’s and approving official’s review of the
purchase. To verify the existence of accountable property, we nonstatistically selected
property purchased through the transactions in our sample and tested for its existence.

We nonstatistically selected a sample of GPC transactions to review. The agency
program coordinator for USCENTCOM provided a database of 6,934 purchase card
transactions that occurred from July 1, 2008, through June 30, 2009, valued at $7.9
million. We nonstatistically selected 120 transactions valued at $472,681. Our selection
was based on various GPC attributes, such as the transaction amount, date of purchase,
type of vendor, and other indicators relevant to Federal and DOD spending guidance.
Our review was limited to a nonstatistical sample; thus, we cannot project the results to
the universe of purchase card transactions. In addition, the Protocol Office provided a
listing of 96 distinct line assets that identified 994 gifts valued at $34,425. We
inventoried 30 nonstatistically selected distinct line assets that were identified as having
446 items valued at $19,661. We also reviewed data on the inventory of Command coins
that were maintained in a locked drawer.

We also reviewed CENTCOM Regulation 672-3 dated August 25, 2009 and the prior
version dated November 5, 1999 due to information received subsequent to the draft
report. The review was performed to analyze the procedures for the Mission Impact
Awards program.




                                            20
Use of Computer-Processed Data
We used computer-processed data to perform this audit. The agency program
coordinator for USCENTCOM provided a database of purchase card transactions from
the U.S. Bank Access Online system from July 1, 2008, through June 30, 2009. We used
the data to nonstatistically select a sample of transactions for our review.

We assessed the reliability of the U.S. Bank data by tracing the data to source documents.
Specifically, we compared the computer-processed data in our nonstatistical sample to
sales receipts, invoices, approval documents, and contracts. We also corroborated
information through cardholder interviews and e-mail correspondence. This assessment
showed that the data were sufficiently reliable for the purpose of our review.

Prior Coverage
No prior coverage has been conducted on the USCENTCOM headquarters’ use of
Government purchase cards during the last 5 years.




                                           21
United States Central Command Comments




                  Click to add JPEG file




                                 22
Click to add JPEG file




               23
                           Final Report
                            Reference




                         Revised, Page 11




Click to add JPEG file
Click to add JPEG file




               25
Click to add JPEG file




               26
6th Air Mobility Wing Comments




                   Click to add JPEG file




                                  27
28
